Summary Report on Audits of USAID Assistance
Provided Under the Central America and the
Caribbean Emergency Disaster Recovery Fund
(CACEDRF) Supplemental Appropriation
Report No. 1-598-02-003-S

September 3, 2002




                San Salvador, El Salvador
Assistant Inspector
 General for Audit



September 3, 2002

MEMORANDUM

FOR:                  AA/LAC, Adolfo A. Franco

FROM:                 AIG/A, Bruce N. Crandlemire /S/

SUBJECT:              Summary Report on Audits of USAID Assistance Provided Under
                      the Central America and the Caribbean Emergency Disaster
                      Recovery Fund (CACEDRF) Supplemental Appropriation
                      (Report No. 1-598-02-003-S)

This report summarizes the results of the Office of Inspector General’s audits of
CACEDRF activities over the life of the program. The report does not contain any
recommendations for your action. Your comments on the draft report are included
in their entirety in Appendix II.

From the beginning, efforts to maintain accountability for CACEDRF funds have
benefited from collaborative efforts involving mission and Bureau staff,
Congressional stakeholders, and OIG staff. I would like to take this opportunity to
express my sincere appreciation for your exceptional efforts and those of your staff,
both in Washington and in the field, throughout the duration of the CACEDRF
program.




                                                                                        2
Table of   Summary of Results                                             4
Contents
           Background                                                     5

           Objective                                                     11

           Findings                                                      11

              What were the results of the OIG’s audits of
              the CACEDRF program?                                       11

                  Financial Statement Audit Results                      12

                  Internal Audit Results                                 14

                       Were activities implemented on schedule?          14

                       Were host country contracting competition
                       requirements followed?                            19

                       Did USAID missions monitor CACEDRF activities
                       in accordance with USAID policies?                19

                       Did missions process payments and advances in
                       accordance with applicable laws and regulations
                       and USAID policies and procedures?                21

           Management Comments and Our Evaluation                        21

           Appendix I – Scope and Methodology                            22

           Appendix II – Management Comments                             23




                                                                              3
Summary of   This report summarizes the results of the Office of Inspector General’s (OIG’s)
Results      audits of the $621 million Central America and the Caribbean Emergency
             Disaster Recovery Fund (CACEDRF) program. The report discusses the results
             of financial audits and performance audits of CACEDRF activities.

             A major conclusion of the report is that a risk-based approach, which includes
             activities directed toward preventing problems from occurring as well as detecting
             them through audits and investigations, can be effective in making sure that
             USAID funds are spent effectively and for agreed-upon purposes. As part of its
             oversight effort, the OIG conducted a series of risk-based audits that included
             quarterly concurrent financial statement audits of activities deemed to be of high
             risk and annual financial statement audits of moderately and lower risk activities.
             All activities were subject to coverage by performance audits conducted by OIG
             auditors. In addition, the OIG provided fraud awareness training to 2,141
             participants in the CACEDRF countries. This training was directed to employees
             of USAID and its partners who were managing USAID funds on a day-to-day
             basis and had first-hand knowledge of how USAID funds were being used. The
             training helped ensure that the participants knew how to prevent and detect
             common fraud schemes and were aware of their responsibility to report suspected
             fraud to the OIG. Another key component of the OIG’s oversight program was
             the use of concurrent audits for high-risk activities. For these concurrent audits,
             audit work was performed throughout the year and quarterly audit reports were
             produced, providing a deterrent effect and substantially reducing the possibility
             that accountability problems could take hold without being detected.

             The OIG’s financial statement audit reports on the CACEDRF program have
             disclosed $7.6 million in questioned costs, 229 reportable internal control
             conditions, and 223 instances of material noncompliance with agreement terms
             and applicable laws and regulations. Over time, as auditors found problems and
             worked with grantees and contractors to correct them through the audit
             recommendation follow-up process, grantees and contractors improved their
             administrative procedures and systems of internal control. As a result, over the
             course of the program, questioned costs as a percentage of total audited costs fell
             significantly from 7 percent to 2 percent. (See page 12.)

             The OIG’s performance audits addressed four types of questions:

             •   Were activities implemented on schedule? The OIG conducted 11 audits that
                 examined whether activities were on schedule. Four of these audits concluded
                 that the activities were on schedule, five audits found that certain activities
                 examined were on schedule while others were not, and two audits concluded
                 that the activities audited were not on schedule. (See page 14.)




                                                                                                   4
             •   Were host country contracting competition requirements followed? In both
                 cases where the OIG examined this issue, we found that the host government
                 complied with competition requirements. (See page 19.)

             •   Did missions monitor CACEDRF activities in accordance with USAID
                 policies? The OIG examined mission monitoring of CACEDRF activities
                 through eight audits. Four of these audits showed that the missions were
                 appropriately monitoring the activities in accordance with USAID policies. In
                 three cases, the auditors concluded that monitoring was generally adequate but
                 that some monitoring deficiencies existed. In one case, the auditors concluded
                 that activities were not adequately monitored. (See page 19.)

             •   Did missions process payments and advances in accordance with applicable
                 laws and regulations and USAID policies and procedures? The OIG
                 performed three audits to examine whether missions were processing
                 payments and advances in accordance with applicable laws and regulations
                 and USAID policies and procedures. Recognizing that several missions
                 would face dramatically increased workload due to the CACEDRF program,
                 these audits were intended to be more preventive or proactive in nature and
                 provide USAID management with assurance that the missions could handle
                 the additional workload associated with CACEDRF payments and advances
                 while still exercising reasonable scrutiny over payment and advance requests.
                 All three of the audits showed that the missions were generally processing
                 payments and advances correctly but that some problem areas existed. (See
                 page 21.)

             The LAC Bureau’s comments on our draft report noted that the report did not
             contain any recommendations for the Bureau’s action and expressed appreciation
             for the role played by the OIG in the CACEDRF program. (See page 21.)



Background   Hurricane Mitch was an extremely destructive storm that struck Central America
             at the end of October 1998. This hurricane caused massive loss of life and
             damage to homes, schools, roads, water and sanitation systems, and other
             infrastructure. Honduras was the hardest hit, with 13,709 people reported killed
             and missing and approximately 1.9 million people affected by the disaster.
             Nicaragua also suffered severe damage, with 3,747 people reported killed and
             missing and 867,752 people displaced by the storm. Guatemala and El Salvador
             suffered lesser, but still serious, damage from the hurricane. Economic damages
             throughout Central America were estimated from $5 billion to $10 billion –
             amounts far beyond the capacity of the local governments to absorb.

             The U.S. Government responded immediately with emergency relief supplies,
             emergency Food for Peace aid, and other assistance totaling more than $300



                                                                                                5
million. This emergency assistance helped relieve suffering and meet some of the
most pressing needs for shelter, food, clean water, and medical supplies.

To address longer-term reconstruction needs, and respond to the effects of other
hurricanes in the Caribbean and an earthquake in Colombia, the U.S. Congress
passed a supplemental appropriation to establish a $621 million Central America
and the Caribbean Emergency Disaster Recovery Fund (CACEDRF). 1 An
informal agreement was reached between the Congress and USAID that the funds
provided under the supplemental appropriation would be spent by December 31,
2001.

The Congress included $5.5 million in the supplemental appropriation to help
USAID monitor the program and $1.5 million to help the OIG provide close audit
and investigative oversight of the program. The OIG used these funds mainly to
hire five auditors through personal services contracts and to pay travel costs
associated with audits and investigations of CACEDRF activities. The Congress
also provided $500,000 to the U.S. General Accounting Office (GAO) to monitor
the program.

Accountability Concerns

In the aftermath of this unprecedented disaster, all of the concerned parties –
officials in the U.S. State Department, officials in USAID, members of the U.S.
Congress, and governments and civil society organizations in Central America –
saw a need for strong accountability and control mechanisms to make sure that
the assistance reached the intended beneficiaries. Given the level of suffering in
the region, it was easy to see how corruption, if it became widespread, could lead
to political crisis and instability. Factors that contributed to increased risk under
the CACEDRF program were the large size of the program, the need to spend
funds quickly to meet pressing needs, and the weak internal control and law
enforcement mechanisms found in many countries in the region. 2

OIG Strategy

The overarching objective of the OIG’s strategy was to make sure that USAID
assistance funds would be well spent. More specifically:

•        Funds would be spent for agreed-upon purposes.

1
  A total of $34 million was transferred to other federal agencies under the authority of Section
632(a) of the Foreign Assistance Act of 1961. USAID is not responsible for monitoring or
reporting on the uses of these funds.
2
  Transparency International’s 1999 Corruption Perceptions Index included five countries that
received major portions of the $621 million supplemental appropriation. Four of the five countries
were in the bottom third of the rankings, indicating that corruption was perceived as a significant
threat.



                                                                                                 6
•       Expenditures would be reasonable, allocable, and necessary.

•       USAID’s programs would be efficient and effective in achieving planned
        results.

In addition to helping ensure that USAID funds would be well spent, the OIG
aimed to help discourage corruption in general. Since resources are freely
exchangeable in an economic sense, it would make little sense to spend large
amounts of USAID funds in countries that are losing substantial resources to
corruption.

Proactive Activities – In planning its oversight activities, the OIG emphasized
prevention and deterrence. Working with USAID missions, the OIG undertook
the following proactive initiatives:

•       Educated USAID staff, grantees, and contractors about fraud and made
        sure that they understood their responsibility to report evidence of fraud
        and corruption. The OIG provided fraud awareness training to 2,141
        participants in the CACEDRF countries.

•       Helped USAID design its activities to minimize the risk of fraud and
        corruption.

•       Helped USAID partners establish appropriate fraud prevention policies,
        including policies regarding financial disclosure, ethics, employee
        conduct, and fraud reporting.

•       Evaluated the internal controls established by USAID and its contractors
        and grantees.

•       Assisted USAID officials with their monitoring efforts. For example, the
        OIG helped draft scopes of work for agreed-upon procedures
        engagements3 and provided numerous interim reports and letters to
        management to alert them to urgent implementation problems requiring
        immediate attention.




3
  An agreed-upon procedures engagement is one in which an accounting firm issues a report of
findings based on specific procedures designed to test an assertion or assertions. Agreed-upon
procedures engagements can be useful when a mission needs an accounting firm to perform
certain well-defined monitoring or testing procedures on a program or activity (e.g., end-use
checks of commodities) but does not require an audit opinion.


                                                                                                 7
Photograph: OIG staff provide fraud awareness training to the staff of a USAID
grantee.

Audit and Investigations Activities – While the OIG’s oversight strategy
emphasized prevention and deterrence, no control system, no matter how well
conceived, can provide absolute assurance of preventing all serious problems
from occurring. Accordingly, substantial resources were also devoted to detecting
accountability problems through audits and investigations.

The OIG used a risk-based approach to prioritize its workload and determine what
type of audit coverage would be appropriate for each individual activity funded
under the supplemental appropriation. The OIG performed risk assessments of
each activity financed under the supplemental appropriation, examining four areas
for each activity:

•      Implementing Entities – What experience did USAID have with each
       entity and what was the audit history of the entity?

•      Implementation Arrangements – Were there any special arrangements that
       will either increase or decrease risk?

•      Nature of Activities Financed – What were the inherent risks affecting the
       activities?

•      Amount of Funding – All other things being equal, larger activities were
       considered riskier and received a higher level of audit coverage.



                                                                                  8
After assessing risk in each of these areas, the OIG made judgments about what
type of audit coverage would be cost effective and useful. Higher-risk activities
were covered by concurrent financial statement audits. Lower-risk activities
received annual financial statement audits. 4 All activities were subject to
coverage by performance audits performed by OIG auditors. More information
on each type of audit follows.

•   Concurrent Financial Statement Audits – These audits, like all other audits
    of USAID funds supervised by the OIG, were performed in accordance with
    Government Auditing Standards issued by the U.S. General Accounting
    Office (GAO). The reports issued for concurrent audits included the auditor’s
    opinion on the fund accountability statement (a financial statement that shows
    budgeted and actual expenses by line item, as well as any questioned costs
    identified by the auditor), a report on internal control, a report on compliance
    with agreement terms and applicable laws and regulations, a review report on
    cost sharing, and a report on the status of recommendations from prior audits.
    The concurrent audits supervised by the OIG differed from an annual financial
    statement audit in that audit work was done throughout the year and quarterly
    audit reports were required.

    Concurrent audits were performed by private accounting firms, by Supreme
    Audit Institutions (SAIs) 5 , or by the U.S. Defense Contract Audit Agency
    (DCAA). 6 The audits were closely supervised by the OIG. Specifically, the
    OIG approved the scope of work, approved the audit program including
    detailed audit steps to be performed by the auditors, performed periodic on-
    site monitoring of the field work performed by the auditors, attended entrance
    and exit conferences wherever possible, approved the draft audit report, and
    approved the final audit report and issued it as an OIG work product. The
    OIG required that audits by local accounting firms be supervised by staff from
    their U.S. partner firms and required that the audit reports be signed in the
    name of the U.S. firm.

•   Annual Financial Statement Audits – As with the concurrent audits
    described above, these audits were performed in accordance with Government
    Auditing Standards. The reports included the auditor’s opinion on the fund
    accountability statement, a report on internal control, a report on compliance,
4
  Some low-risk activities carried out by U.S. contractors and grantees were covered by
organization-wide audits conducted pursuant to Office of Management and Budget Circular No.
A-133 or cost incurred audits in the United States carried out by the U.S. Defense Contract Audit
Agency. Also, activities carried out by directly by Federal Government employees were not
subject to financial statement audits although they were subject to internal audits conducted by the
USAID OIG or their own agency OIGs.
5
  SAIs may perform audits of USAID funds where they have been found capable to perform such
audits by the OIG and where they have signed a memorandum of understanding (MOU) with the
OIG and the USAID mission. The SAIs in two countries covered by the CACEDRF program
(Honduras and El Salvador) have signed such an MOU.
6
  DCAA performs audit services for other federal agencies on a reimbursable basis.


                                                                                                  9
    a review report on cost sharing, and a report on the status of recommendations
    from prior audits (as well as a calculation of the final indirect cost rate and a
    report on the entity’s general purpose financial statements where necessary).
    As with concurrent audits, the audits were performed by private accounting
    firms, by SAIs, or by DCAA. However, instead of the quarterly reporting
    required for concurrent audits, these audits had annual reporting by the
    auditors.

•   Internal Audits – Internal audits by the OIG provided an independent
    assessment of the performance of the programs carried out under the
    supplemental appropriation. These audits examined whether activities were
    implemented on schedule, whether host country contracting was accomplished
    in accordance with USAID competition requirements, whether missions
    properly monitored activities, and whether missions processed payments and
    advances in accordance with USAID policies and procedures and applicable
    laws and regulations.

•   Investigations Activities – OIG investigations staff were involved in:

    ♦ Presenting fraud awareness briefings to USAID staff, grantees, and
      contractors.

    ♦ Providing intelligence to missions concerning individuals and
      organizations that might not be trustworthy partners.

    ♦ Conducting a proactive review of host country contracting actions to look
      for unusual patterns of bidding activity.

    ♦ Investigating allegations of criminal activity or serious misconduct.

Coordination Activities – Successfully carrying out the OIG’s strategy involved
a sustained, coordinated effort by the OIG, USAID’s Bureau for Latin America
and the Caribbean (LAC Bureau), the missions receiving funds under the
supplemental appropriation, audit firms, SAIs, and other important partners and
stakeholders.

The OIG’s risk assessments were prepared in collaboration with the missions who
were responsible for managing the supplemental funds. Missions played an
important role in the audit program by funding audit contracts, awarding contracts
for concurrent audits and agency-contracted audits, approving audit contracts for
recipient-contracted audits, and following up with grantees and contractors to
make sure that audit recommendations were fully implemented.

At the outset of the program, and at intervals throughout the program, the OIG
met with GAO staff to help ensure that our respective oversight programs were



                                                                                   10
            complementary to the greatest extent possible, to avoid scheduling conflicts, and
            to make sure that both GAO and the OIG were apprised of significant audit
            results.

            The USAID OIG also coordinated its oversight efforts with the Inspectors
            General of the other Federal agencies participating in the CACEDRF program.
            For funds that are obligated by USAID through agreements with other Federal
            agencies (under Section 632 (b) of the Foreign Assistance Act), the USAID OIG
            is responsible for compliance with the audit requirements of the Inspector General
            Act of 1978, as amended, in coordination with the Inspector General of the
            recipient agency.

            The OIG met with the other major donor organizations that provided assistance in
            response to the Hurricane Mitch disaster. The OIG provided them with detailed
            information on the OIG’s oversight strategy and details on the timing of each
            audit planned under the program.

            Finally, OIG staff met periodically with Congressional staff and LAC Bureau
            management throughout the duration of the program, and the Inspector General
            testified before the House Committee on Appropriations, Subcommittee on
            Foreign Operations, on March 21, 2001. These periodic communications helped
            ensure that the OIG’s oversight efforts were responsive to the needs of our
            customers and stakeholders.


Objective   As part of its fiscal year 2002 audit plan, the Regional Inspector General/San
            Salvador conducted this audit to answer the following audit objective:

            What were the results of the OIG’s audits of the CACEDRF program?

            Appendix I describes the audit scope and methodology.



Findings    What were the results of the OIG’s audits of the CACEDRF program?

            As of June 30, 2002, the OIG has issued 236 financial statement audit reports on
            the program. These financial audit reports disclosed $7.6 million in questioned
            costs, 229 reportable internal control conditions, and 223 instances of material
            noncompliance with agreement terms and applicable laws and regulations. The
            results of these audits are discussed in the section below.

            As of June 30, 2002, the OIG has issued 14 internal audit reports on the
            CACEDRF program. The results of these audits are discussed in the section
            beginning on page 14.



                                                                                             11
                                            The OIG’s oversight program has been successful in helping limit accountability
                                            problems to a relatively low level.

                                            Financial Statement Audit Results

                                            As indicated above, financial statement audit reports on the CACEDRF program
                                            disclosed $7.6 million in questioned costs, 229 reportable internal control
                                            conditions, and 223 instances of material noncompliance with agreement terms
                                            and applicable laws and regulations.

                                            The OIG placed major emphases on identifying higher risk programs and
                                            conducting concurrent audits, training, and activities aimed at preventing
                                            accountability problems from occurring wherever possible. At the same time,
                                            recognizing that not all problems can be prevented, the OIG used concurrent
                                            audits to surface accountability problems at an early stage when the amounts
                                            involved were relatively small and it was relatively easy to correct the problems.

                                            Under the concurrent audit program, audit reports were issued at three-month
                                            intervals, making it unlikely that accountability problems could grow out of
                                            control before being detected. In addition, over time, as auditors found problems
                                            and worked with grantees and contractors to correct them through the audit
                                            recommendation follow-up process, grantees and contractors improved their
                                            administrative procedures and systems of internal control. As a result, over the
                                            course of the program, questioned costs as a percentage of total audited costs fell
                                            significantly from 7 percent to 2 percent.

                                                                          Questioned Costs as a Percentage of Audited Costs


                                            7%




                                            6%




                                            5%



                                            4%




                                            3%




                                            2%




                                            1%




                                            0%
                                             Mar-00         Jun-00        Sep-00         Dec-00         Mar-01         Jun-01        Sep-01         Dec-01

Graph – Shows questioned costs as a percentage of audited costs for quarters ending March 2000 through December 2001. Values shown are 7%, 2%, 3%, 2%, 3%, 3%,




                                                                                                                                                             12
2%, and 2%.
                                             At the same time, the average number of internal control findings per audit report
                                             fell from 0.9 to 0.2 and the average number of compliance findings per audit
                                             report fell from 1.5 to 0.2.

                                                             Average Number of Internal Control and Compliance Conditions Per Audit Report


                                               2




                                             1.5




                                               1




                                             0.5




                                              0
                                              Mar-00         Jun-00         Sep-00              Dec-00             Mar-01           Jun-01   Sep-01    Dec-01

                                                                                     Internal control conditions    Compliance conditions
Graph – Shows average number of internal and compliance conditions per audit report for the quarters ending March 2000 through December 2001. Values shown are .9,
1.7, 1.4, 1.5, 1.2, .7, .5, and .2 for internal control conditions and 1.5, 1.7, 1.1, 1.2, .9, .8, .9, and .2 for compliance conditions.
                                             In summary, the financial audit program helped limit accountability problems to a
                                             low level and helped surface these problems at an early stage where they were
                                             still relatively easy to correct.




                                                                                                                                                                13
Photograph: A Honduran engineer pointing out school reconstruction works to an
OIG manager.

Internal Audit Results

The OIG’s internal audit program addressed several different questions, each of
which is addressed separately in the following sections. One of the most
important questions, given the number of persons affected by the disasters, and
the short period allowed to carry out CACEDRF programs, was whether services
were provided to beneficiaries on schedule. In two cases, where programs audited
by the OIG were in the initial contracting stage, the OIG examined whether host
governments followed USAID competitive requirements in awarding host country
contracts. In other cases, where contracting had substantially been completed and
more assistance activities were actually underway, the OIG examined whether
missions were properly monitoring CACEDRF programs. Finally, the OIG
undertook three audits that were more preventive or proactive in nature, which
aimed to verify that missions had the trained staff, controls, and procedures in
place to disburse funds in a timely manner while still subjecting payment requests
to reasonable scrutiny.

Were activities implemented on schedule? The OIG conducted 11 audits that
examined whether CACEDRF activities were on schedule. Four of these audits
concluded that the activities were on schedule, five audits found that certain
activities examined were on schedule while others were not, and two audits
concluded that the activities audited were not on schedule. Some specific
information from each audit follows:




                                                                               14
•   A September 2000 audit of the $8 million housing program in the Dominican
    Republic showed that the housing program was on schedule to complete 2,250
    new houses and repair 1,541 houses. USAID/Dominican Republic originally
    planned to repair 2,750 houses. However, many houses requiring repair had
    already been repaired by the occupants or through other available programs.
    In addition, housing repair programs can be time consuming and relatively
    costly because each house to be repaired may have different needs that have to
    be approached individually. On the other hand, considerable economies of
    scale can be achieved when large numbers of standardized new homes are
    constructed. For these reasons, USAID/Dominican Republic decided to focus
    more heavily on new home construction. It used the savings from repairing
    fewer houses to pay for a higher standard of new home construction that
    included basic water and sanitation facilities.




    Photograph: An OIG auditor interviews project beneficiaries in the Dominican
    Republic.

•   An audit of USAID/Honduras’ $19 million housing program conducted in
    March and April 2001 concluded that housing activities were on schedule.
    The temporary shelter program was completed in November 2000 and
    exceeded the planned number of temporary shelters with 2,646 shelters
    constructed versus 2,100 planned. Permanent housing activities were on
    schedule to complete the planned 5,250 houses. As of March 31, 2001, 2,278
    permanent houses were completed, 2,340 houses were under construction, and
    approximately 1,700 houses remained to be started.




                                                                               15
Photograph: An OIG auditor interviews a housing site manager in Honduras.

•   An audit of USAID/Honduras’ credit activities showed that the activities were
    on schedule. In fact, the credit activity had exceeded the target level of loans
    as of March 31, 2001, when $23 million had been disbursed for loans versus
    $20 million planned.

•   An audit of CACEDRF activities in the Eastern Caribbean concluded that the
    activities were on schedule. As of December 7, 2001, most activities were
    completed, although development of integrated coastal management plans was
    90 percent complete and several construction activities were between 88
    percent and 99 percent complete.

•   In Guatemala, an audit of $3 million in road and bridge repair activities
    concluded that one grantee was on schedule to complete 100 kilometers of
    road and 15 bridges. However, as of August 2000, a second grantee was
    behind schedule in reconstructing about 130 kilometers of road. This grantee
    was behind schedule because it had no previous experience in building roads
    or contracting for road construction and actual contract costs were about
    double the expected amount. In response to the OIG’s audit,
    USAID/Guatemala and this grantee developed a plan to complete the planned
    130 kilometers of road using equipment purchased under the grant and
    contributions from local communities, municipalities, and cooperatives.

•   OIG auditors concluded that USAID/Nicaragua’s $35 million agriculture
    program was on schedule as of September 30, 2000, except for three activities


                                                                                  16
    designed to improve coffee quality, create a self-sustaining credit facility, and
    rehabilitate rural roads. In response to OIG recommendations,
    USAID/Nicaragua and its partners reprogrammed coffee quality activities,
    took steps to find a local partner to assume responsibility for the credit
    facility, reduced the planned number of roads to be rehabilitated (due to cost
    increases that resulted from rehabilitating roads to a higher standard than
    originally planned), and obtained more detailed planning information from its
    partner for the road rehabilitation component. USAID/Nicaragua also
    developed a performance monitoring plan and began performing data quality
    assessments on information reported by its partners.

•   In Haiti, an audit of the $10 million Hurricane Georges Recovery Program
    found that, as of December 31, 2000, 27 of 31 activities reviewed were being
    implemented as planned; however, 4 activities were significantly delayed.
    One of these activities – consisting mainly of two watershed studies and
    related technical assistance – was delayed to the point that certain deliverables
    could not be provided by the end of the program. In response to an OIG
    recommendation, USAID/Haiti deobligated $36,000 from an agreement with
    the U.S. Army Corps of Engineers that could not be effectively used by the
    end of the program.




    Photograph: An OIG auditor speaks with project officials and beneficiaries of
    a potable water system in Haiti.

•   As of December 31, 2000, USAID/Nicaragua’s water and sanitation activities,
    with $10 million in CACEDRF funding, were on schedule except for one
    activity that was to construct seepage pits for disposing of wastewater from
    dishwashing, showers, and similar activities. This component was not
    implemented because a suitable design for the seepage pits could not be
    developed. In response to the audit, the mission decided to reprogram
    $136,000 in CACEDRF funds for other uses.


                                                                                   17
•   In reviewing $16 million in CACEDRF-funded agriculture activities in
    USAID/Guatemala, OIG auditors concluded that, as of March 2001, three of
    five activities reviewed were on schedule to achieve the planned outputs. The
    auditors could not tell whether the remaining two activities were on schedule
    because complete information was not available from the grantees. In
    response to the audit, USAID/Guatemala obtained and verified information on
    activities carried out by the two grantees and provided its activity managers
    with training on monitoring responsibilities and techniques.

•   In November 2000, the OIG examined $100 million in water and sanitation
    activities in Honduras and found that the activities were significantly delayed.
    One grantee – the National Autonomous Water and Sanitation Service – was
    doing well in installing rural water systems and latrines but was behind
    schedule in installing urban water systems – as of September 30, 2000, these
    systems were expected to be 37 percent complete but were only 8 percent
    complete. This occurred primarily because of a delay in receiving USAID-
    provided construction materials. The second grantee – the Honduran Social
    Investment Fund – was also behind schedule in installing water, sanitation,
    and drainage works in urban areas and relocation sites for displaced persons.
    This grantee had grouped its major projects into procurement “bundles” to
    make them more attractive to U.S. construction firms. At the time of the
    OIG’s audit, only one of six procurement bundles was in the construction
    stage. Construction of the works included in the first procurement bundle was
    expected to be 22 to 30 percent complete but the actual percentage of
    completion ranged from 8 to 13 percent. In response to OIG audit
    recommendations, USAID/Honduras worked with its grantees to develop
    plans to make up for lost time.

•   When OIG auditors examined USAID/Honduras’ $50 million road
    reconstruction activity in April 2000, the activity was not on schedule.
    Because implementation was proceeding more slowly than planned, and costs
    were higher than planned, the auditors concluded that planned activities could
    not be carried out within the planned budget or time frames.
    USAID/Honduras took numerous actions both before and following the OIG’s
    audit to speed implementation of the road reconstruction activity. In response to
    the audit, USAID/Honduras, in consultation with the Government of Honduras,
    revised the planned outputs, reducing unsurfaced road reconstruction from 2,000
    kilometers to 1,246 kilometers while increasing bridge reconstruction from
    2,000 linear meters to 4,494 linear meters. USAID/Honduras and the
    Government of Honduras also developed an accelerated implementation plan
    that involved (1) awarding additional contracts to construction firms with
    available capacity, (2) using indefinite quantity contracts to shorten the time
    needed to award contracts, (3) permitting the host government executing unit
    flexibility to shift activities between geographic areas and contractors based on
    weather conditions and contractor performance, (4) adjusting selection criteria to


                                                                                   18
    ensure that only roads and bridges that can be completed by December 31, 2001
    are selected for reconstruction, and (5) allowing the host government executing
    unit to hire additional staff.

Were host country contracting competition requirements followed? In both
cases where the OIG examined whether host country contracting competition
requirements were met, we found that the requirements were complied with:

•   Under USAID/Honduras’ road reconstruction activity, OIG auditors examined
    the complete procurement process followed for the first round of $19 million
    in contracts for construction of roads and bridges. The auditors also examined
    the advertising for a second round of contracts expected to total about $28
    million. The auditors found that (1) procurement opportunities were
    appropriately publicized in the Commerce Business Daily and Honduran
    newspapers, (2) evaluation committees evaluated proposals or bids for every
    major procurement, and (3) awards were made to the most technically
    qualified and responsible offerors (for design and supervision services) or to
    the lowest responsible bidders (for construction services).

•   For USAID/Honduras’ water and sanitation activities, OIG auditors examined
    the procurement process for host country contracts totaling $25 million. As
    with the road reconstruction activity discussed above, the auditors found that
    (1) procurement opportunities were appropriately publicized, (2) evaluation
    committees were used to evaluate proposals and bids, and (3) awards were
    made to the most technically qualified and responsible offerors or to the
    lowest responsible bidders.

Did USAID missions monitor CACEDRF activities in accordance with
USAID policies? The OIG examined mission monitoring of CACEDRF
activities through eight audits. Four of these audits showed that the missions were
appropriately monitoring the activities in accordance with USAID policies. In
three cases, the auditors concluded that monitoring was generally adequate but
that some monitoring deficiencies existed. In one case, the auditors concluded
that CACEDRF activities were not adequately monitored.

The missions that were appropriately monitoring activities used several
monitoring methods, such as:

•   Approving subcontracts and subgrants, work plans, construction sites and
    plans, and proposed key personnel when provided for in the underlying grant
    agreements and contracts.

•   Maintaining regular contact with implementers through meetings, phone calls,
    and correspondence.




                                                                                 19
•   Performing regular site visits to obtain first-hand knowledge of the quantity
    and quality of outputs produced with USAID financing.

•   Reviewing quarterly or semi-annual financial and performance reports
    provided by contractors and grantees.

•   Reviewing deliverables provided by contractors.

•   Providing for evaluations and, in collaboration with the OIG, audits of
    CACEDRF activities.

The monitoring deficiencies or inadequate monitoring practices identified by the
OIG included the following:

•   In one case, a mission approved a work plan for road construction without
    carefully analyzing the realism of the cost estimates included in the plan. In
    addition, grantees made significant changes to work plans without advising
    the mission of the changes, and the mission’s monitoring system did not
    detect these changes. For example, one grantee decided not to build four
    concrete bridges approved by the mission, replacing them with five bridges in
    other locations that the grantee considered more critical. In response to an
    OIG recommendation, the mission decided to hire an engineer to review plans
    and timetables submitted by grantees and to monitor construction through
    field inspections, review of progress reports, and meetings with project
    personnel.

•   One mission had not provided written approval of sub-awards and housing
    construction sites as required. This was not considered a critical problem
    since the mission was working closely with its grantee on the design and
    implementation of the activity.

•   One mission had not formulated plans for verifying information reported by
    grantees and contractors on results achieved and had not assessed the quality
    of information on actual results reported by its partners. In response to OIG
    audit recommendations, the mission developed a performance monitoring plan
    and began verifying the accuracy of reported information on results achieved.

•   For one activity, a mission did not approve grantees’ work plans, monitoring
    and evaluation plans, and sub-awards. In addition, while mission staff were
    performing site visits to observe activities carried out by grantees, the
    mission’s monitoring was not as purposeful as it might have been with respect
    to monitoring the quantity and quality of outputs. In response to an OIG audit
    recommendation, the mission decided to provide its activity managers with
    training on monitoring responsibilities and techniques.




                                                                                    20
                 Did missions process payments and advances in accordance with applicable
                 laws and regulations and USAID policies and procedures? The OIG
                 performed three audits to examine whether missions were processing payments
                 and advances in accordance with applicable laws and regulations and USAID
                 policies and procedures. In light of the fact that several missions faced
                 dramatically increased workload due to the CACEDRF program, these audits
                 were intended to be preventive or proactive in nature and provide USAID
                 management with assurance that the missions could handle the additional
                 workload associated with CACEDRF payments and advances while still
                 exercising reasonable scrutiny over payment and advance requests. All three of
                 the audits showed that the missions were generally processing payments and
                 advances correctly but some deficiencies existed.

                 With respect to advances, all three missions had established procedures whereby
                 contract technical officers and financial management staff reviewed and approved
                 advance requests. However, all three missions approved some advances (ranging
                 from 20 to 85 percent of the advances examined by the auditors) that exceeded the
                 grantees’ immediate cash needs. In response to OIG recommendations, the
                 missions implemented improved methods of approving new advances, monitoring
                 outstanding advances, and/or collecting outstanding advances that were not
                 needed by the grantees that received them.

                 With respect to payments, the missions correctly logged in payment vouchers,
                 verified that invoices were arithmetically correct, made sure that payments were
                 directed to correct payees, recorded payments correctly in their payment tracking
                 and accounting systems, generally ensured that payments were made on time, and
                 generally ensured that payments were in compliance with the terms of the
                 underlying contracts and agreements. However, one mission made some late
                 payments (13 percent of the payments reviewed by the auditors), and another
                 mission made some payments (23 percent of the payments reviewed) that were
                 not in full compliance with the underlying contracts or agreements. In response to
                 OIG recommendations, one mission improved its payment policies and the second
                 mission provided additional training to its staff and provided them with easier
                 access to the Federal Acquisition Regulations and the USAID Acquisition
                 Regulations.




Management       The LAC Bureau’s comments on the draft report noted that the report did not
Comments and     contain any recommendations for the Bureau’s action and expressed appreciation for
Our Evaluation   the role played by the OIG in the CACEDRF program. The LAC Bureau’s
                 comments are attached in their entirety in Appendix II.




                                                                                                21
                                                                                      Appendix I



Scope and     Scope
Methodology
              This report is not an audit report. The report was prepared in accordance with the
              general standards portion of generally accepted government auditing standards.
              The overall purpose of the report is to summarize the results of the OIG’s
              individual audits of the CACEDRF program and it did not involve any additional
              audit work.

              Methodology

              Since this report is a summary of previous OIG audit reports on the CACEDRF
              program, preparation of the report primarily involved a review of all audit reports
              on CACEDRF activities issued as of June 30, 2002, as well as discussions with
              audit and investigations staff involved in oversight of the CACEDRF program.




                                                                                               22
                                                              Appendix II


Management
Comments


         MEMORANDUM

         TO:          IG/A, Toby Jarman

         FROM:        AA/LAC, Adolfo A. Franco

         SUBJECT:   Summary Draft Report On Audits For
                    The CACEDERF Supplemental Appropriation

              Thank you for your recent memorandum conveying the
         draft Summary Report on Audits of USAID Assistance Provided
         Under the Central America and the Caribbean Emergency
         Disaster Recovery Fund (CACEDERF) Supplemental
         Appropriation.

              We note your confirmation that there are no outstanding
         recommendations which require our action. However, I would
         like to take this opportunity to express our Bureau’s
         appreciation for the exceptional level of cooperation and
         support which your office provided during the course of this
         critical program’s implementation. We are very proud of the
         job which LAC and our field missions accomplished in
         managing this massive reconstruction program but it would
         not have been possible without the vital oversight and
         accountability of the Office of the Inspector General.

              I know that I speak for all of our LAC officers by
         expressing to you my thanks for a job very well done.




                                                                      23
